                        National Archives and Records Administration
                                                                                              8601 Adelphi Road
                                                                             College Park, Maryland 20740-6001

Date 	      May 5, 2010
RepJyto
Attn of 	    Office of Inspector General (OIG)

Subject 	   Advisory Report No.1 0-12, Similar Developmental Issues Exist for both NARA's Electronic
            Records Archives Program and the FBI's Sentinel Project

To: 	       David S. Ferriero, Archivist ofthe United States (N)

            This advisory report serves to inform you as to the status ofthe "Base"} Electronic Records
            Archives (ERA) Program. This is the third report resulting from our continuing effort to evaluate
            and report on government and contractor efforts associated with developing the Electronic
            Records Archives. This initiative focuses on assessing whether (a) the ERA Program is meeting
            cost and schedule requirements, and (b) National Archives and Records Administration (NARA)
            and contractor management officials are taking timely action to correct any actual or potential
            problems with program performance.

            In our opinion, if the issues discussed in this report are not remedied or appropriately addressed,
            NARA runs the risk of winding up with a system that is overpriced, unsecured, and unable to
            satisfy the agency's requirements. As the relationship between Lockheed Martin and NARA
            enters its final two years, it is imperative that NARA officials act decisively to address and
            mitigate the risks identified to program success identified below, while planning for the
            eventuality that the final deliverable will fail to meet baseline requirements.

            In several ways, NARA's experience with developing the ERA system is similar to that of the
            Federal Bureau of Investigation's (FBI's) development of the Sentinel information and
            investigative case management system. On March 16, 2006, the FBI announced the award of a
            $305 million contract to Lockheed Martin Services, Incorporated, as part of a $425 million
            project to develop the Sentinel system. In its original plan, the FBI expected to develop Sentinel
            in four overlapping phases, each lasting 12 to 16 months. Each phase, when deployed, was to
            provide a stand-alone set of capabilities upon which subsequent phases would add further
            capabilities. The FBI originally scheduled the fourth and final phase of Sentinel to be completed
            by December 2009.

            After more than 3 years and $334 million expended on the development and maintenance of
            Sentinel, the cost to Sentinel is rising, the completion of Sentinel has been repeatedly delayed,
            and the FBI does not have a current schedule or cost estimate for completing the project.


I The Base ERA will provide basic electronic records management capability for NARA legacy data and records and for
current transactions of other federal agencies.


                                         NARA's web site is http://www.nara.gov
       Like the ERA, Lockheed Martin is developing the Sentinel system for the FBI. In reports of the
       FBI's implementation of the Sentinel Project, the U.S. Department of Justice (DOJ) OIG has
       expressed concerns about Sentinel's overall progress, aggressive schedule, increased costs, and
       inability to satisfy user requirements, similar to the concerns we have about the ERA Program2•

       The DOJ auditors reported that the FBI has had difficulty establishing and maintaining a strict
       cost and schedule for the Sentinel Project. The FBI originally estimated the project would cost
       $425 million and be completed by December 2009. However, Sentinel's overall project
       completion date had been extended to September 2010, nine months later than originally planned,
       and the total projected cost of the project was $451 million, $26 million more than originally
       planned.

       The DOJ auditors' concerns about the FBI's ability to complete Sentinel in a timely and cost­
       effective manner have escalated. As of March 2010, the FBI did not have official cost or
       schedule estimates for completing Sentinel. The remaining budget, schedule, and work to be
       performed on Sentinel are currently being renegotiated between the FBI and Lockheed Martin.
       According to the auditors, while the FBI does not yet have official estimates, FBI officials have
       acknowledged that the project will cost more than its latest revised estimate of $451 million and
       will likely not be completed until 2011.

       Our reviews of the ERA Program have revealed commonalities with the Sentinel Project in the
       following areas:

       System Development Methodology

       In its ,review ofthe FBI's implementation of the Sentinel Project, the DOJ OIG auditors reported a
       change in the development methodology for that system, which is being developed by the
       Lockheed Martin Corporation. According to their report, as a result of lessons learned during the
       development of Phase 1, the FBI and Lockheed Martin replanned the remaining phases of
       Sentinel before developing Phase 2. During this replanning, the FBI and Lockheed Martin
       adopted an incremental development methodology for the remaining portions of Sentinel that
       divided Phases 2 through 4 into segments, which were further divided into increments.

       Apparently, the change in development methodology was not advantageous, because the FBI
       spent an additional $780,000 of discretionary operations and maintenance funds to correct Phase
       2 defects after it accepted the product as delivered in December 2009. The DOJ auditors reported
       that a major reason for switching to this incremental development model was the FBI's desire to
       deliver new capabilities to users every 3 to 6 months. However, the FBI is having difficulty in
       ensuring that the Sentinel program is meeting established requirements, particularly in meeting
       user needs.




2For additional details of the problems with the Sentinel Program, see U.S. Department of Justice OIG audit report no. 10-22,
Status ofthe Federal Bureau ofInvestigation's Implementation of the Sentinel Project, dated March 2010.



                                                             2
                                          NARA's web site is http://www.nara.gov
       We were advised that a new system development methodology proposed by Lockheed Martin,
       known as "Agile," has been employed for ERA work performed under increment 33. The Agile
       approach is based on providing smaller, discrete deliverable units of software. This methodology
       introduces a new set of processes and procedures that minimize formal documentation in
       comparison to the methodology used in prior ERA increments 1 and 2. As a result of minimizing
       documentation, (a) a new level of risk is introduced in that the agency may lack adequate
       documentation with which to oversee the project, and (b) the ability ofNARA to clearly trace
       requirements to software deliverables is limited.

       In addition, this new system development methodology is being introduced without substantiation
       of (a) Lockheed's ability to implement it, and (b) NARA's ability to evaluate contractor
       compliance with contract requirements.

       A senior-level NARA official told us that the agency was not happy with the contractor's Agile
       methodology, but having accepted the contract, NARA accepted the methodology. Another
       NARA official added that the contract gives the contractor flexibility in deciding what
       development methodology to use.

       Senior-Level Program Management

       In its report, the DOl OIG expressed concerns about project personnel turnover. The DOl OIG
       auditors reported that, as of October 2009, the Sentinel Project Management Office (PMO) had 76
       full-time employees who were charged with ensuring that Sentinel addresses FBI users' needs and
       that the contractor, Lockheed Martin, meets its contractual obligations. According to them, due to
       the scope and importance of the project, Sentinel requires a highly-skilled and experienced
       Sentinel PMO staff. From December 2008 through October 2009, however, the Sentinel PMO
       experienced a 26 percent turnover rate. In light ofthe FBI's aggressive development and
       deployment schedule for Sentinel, they were concerned that a continuation of high staff turnover
       would negatively affect the Sentinel PMO's ability to properly oversee the project.

       We have also witnessed the same trend here at NARA. Within the past eight months, several
       senior-level program management officials were transferred out of the ERA Program. The
       positions affected included the Program Director, the Executive Officer, the Principal
       Technologist, and the Director, Nationwide Implementation and User Support Communications.
       We have similar concerns that the ERA Program could be adversely impacted as a result oflosing
       these senior-level officials' extensive program knowledge, experience, and management
       capability.

       These officials were transferred to NARA's new Center for Advanced Systems and Technologies
       (NCAST). The Center will serve as NARA's lead technology organization for advanced and
       applied research in the fields of computer science, engineering, and archival science. Its mission
       is to discover and promote archival technologies to NARA's offices through technical know-how.


3 The ERA is being developed incrementally over several years. According to NARA's 2010 ERA Expenditure Plan,
Increment 3 will include new Congressional and Public Access systems. It is also to augment the base system with
commercial off-the-shelf technology to increase flexibility and scalability. NARA plans to complete this increment by June
2010.



                                                             3
                                          NARA's web site is http://www.nara.gov
However, relative importance of this office does not mask that these key NARA officials will no
longer have focal cognizance over ERA Program development.

Program Costs

The DOJ OIG reported a cost increase and schedule delay for Phase 2 Segment 4 Sentinel Project
effort. The cost increase and schedule delay occurred for several reasons. First, there were
significant problems with the usability of electronic forms that were developed for Sentinel.
Second, there were 26 critical issues related to the functionality of Sentinel that required
resolution before deployment. Third, Sentinel's utilization and compatibility with network
security features in the FBI's Public Key Infrastructure (PKI) did not meet the FBI's expectations.
Fourth, an independent review conducted at the FBI's request concluded that Lockheed Martin
had deviated from accepted systems engineering processes in developing the software code for
Sentinel.

As a result, a stop-work order was issued for Phase 4 of Sentinel. Forms were redesigned and
Segment 4 of Phase 2, a decision that increased the cost of Phase 2 by $2.9 million.

NARA program officials must be vigilant to ensure that a similar situation does not develop for
the ERA Program. At the ERA Combined Monthly Status Review, March 4,2010, contractor
officials revealed that a program metric indicated slower than planned progress for software
development and software architecture, which could result in increased program costs and/or
schedule delays.

Program Schedule

According to the DOJ auditors, the FBI and Lockheed Martin had encountered considerable
challenges in deploying deliverables, and that the FBI had deferred deployment of some
deliverables to later stages ofthe Sentinel project.

For example, they reported that FBI officials had accepted delivery of Sentinel's Phase 2 Segment
3, that the FBI and Lockheed Martin had encountered considerable challenges in deploying these
deliverables, and that the FBI had deferred deployment of some of these deliverables to later
stages of the Sentinel project. On March 3, 2010, because of significant issues regarding Phase 2
Segment 4's usability, performance, and quality delivered by Lockheed Martin, the FBI issued a
partial stop-work order to Lockheed Martin for portions of Phase 3 and all of Phase 4.

Like the Sentinel Project, the ERA Program has incurred schedule problems. A review of ERA
Program documentation revealed that Increment 3 effort includes the following business
functionalities deferred from prior Instances:

   • Creation of Appraisal Report;

   • Identification of records to access;

   • Public review ofrecords schedule;



                                                4
                              NARA's web site is http://www.nara.gov
  • User capability to create business rules;

  • Ability of users to configure their workbench to have multiple views;

  • Scalability of total storage without major design changes;

  • Deletion of assets from storage;

  • Archival descriptions

  • Attachments to Business Objects (Records Schedules, Transfer Requests, Legal Transfer
    Instruments, Transfer Plans);

  • Full workflow management of the creation, review, and approval of preservation plan;

  • Replication of data from the Archival Research Catalog (ARC);

  • Navigation of the archival hierarchy;

  • Ability to search and view descriptions; ;

  • Enhanced output and presentation of assets; and

  • Enable interfaces between ERA and other NARA systems.

In addition, work on Increment 3 was originally scheduled to begin on October 1,2008.
However, contract negotiations for the effort, originally scheduled for March 2008, began in May
2009, and were not completed until September 2009.

In addition, the following functions, originally scheduled for completion in Increment 1, have
been deferred to Increment 4:

  • enforcement of appropriate access rules and present alternate options if access denied;

  • basic workflow management for the creation an approval of access review determinations;

  • coverage for systematic processing or part ora special requestIFOIA process;

  • ability to capture and version a review determination status;

  • notification of review determinations to stakeholders;

  • ability to capture redaction event metadata and the reasons for redaction;

  • ability to ingest redacted version into ERA; and




                                                5
                             NARA 's web site is http://www.nara.gov
    • ability to monitor and execute disposition of electronic records.


 We believe the issues, i.e., shortcomings and delays, discussed in this report, as well as the FBI's
 experience with Lockheed's performance related to developing the Sentinel System, are
 indicators of a program whose success is in jeopardy. Based on the current status of the ERA
 Program, we continue to have significant concerns that, if the issues discussed in this status report
 are not adequately addressed by contractor and NARA program management office officials, the
 agency will not have acquired a system that meets all of its requirements for storing and
 managing electronic records and for managing the lifecycle ofpaper records and other holdings.
 If you have any questions concerning the information presented in this Advisory Report, or there
 are other areas ofthe ERA Program that you would like for us to review, please do not hesitate to
 contact me.
                                    ~
/~~~~/ /
    /L/
L/./I
                  ./ 

Paul Brachfeld /
Inspector General                                                      cc: NH (M. Morphy) 





                                               6
                             NARA 's web site is http://www.nara.gov
